ee CC OCKLE

E-Mail Address:
Omaha, Nebraska 68102-1214 UAL egal B tists contact@cocklelegalbriefs.com
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-847

JONATHAN REISMAN,
Petitioner,

Vv.
ASSOCIATED FACULTIES OF THE
UNIVERSITY OF MAINE, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION OF
RESPONDENT STATE OF MAINE in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 5304 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 26th day of June, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

Berean] Kevee 0. tooo? Oudeaeh Ohl

Notary Public Affiant 39665"

 
